Jeffrey A. Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
T: 202.556.2010
F: 202.536.2010
jlamken@mololamken.com
www.mololamken.com

June 29, 2020
BY ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

TCL Communication Technology Holdings Ltd., et al. v.
Telefonaktiebolaget LM Ericsson, et al., No. 19-1269

Dear Mr. Harris:
The petition in the above-captioned matter was filed and placed on the docket on
May 1, 2020. The respondents’ brief in opposition was originally due June 5, 2020.
Respondents requested and were granted a 31-day extension until July 6, 2020. Pursuant
to Rules 15.3 and 30.4 of this Court, respondents Telefonaktiebolaget LM Ericsson and
Ericsson Inc. hereby request an additional 29-day extension of time, to and including
August 4, 2020, in which to file their brief in opposition. Counsel for petitioners has
indicated that they consent to the extension.
The extension is necessary because counsel is heavily engaged with the press of
other matters.1 The extension is also necessary because of difficulties relating to the
1

Those matters include: the preparation of a merits-stage amicus brief in support of the petitioner in Borden v. United States, No. 19-5410 (U.S.), filed on May 4, 2020; the preparation of a reply brief in Esparraguera v. Department of the Army, No. 19-2293 (Fed. Cir.), filed on May 5, 2020; oral argument in HTC
Corporation v. Telefonaktiebolaget LM Ericsson, No. 19-40566 (5th Cir.), argued on May 6, 2020; the preparation of a petition for a writ of certiorari in Indian River County v. U.S. Department of Transportation,
No. 19-1304 (U.S.), filed on May 18, 2020; the preparation of a brief in opposition to a petition for a writ of
certiorari in Comcast Corp., et al. v. International Trade Commission, et al., No. 19-1173 (U.S.), filed on
May 26, 2020; the preparation of an opening brief in In re: Syngenta AG MIR 162 Corn Litigation, No. 193008 and related cases (10th Cir.), filed on June 1, 2020; the preparation for oral argument in Genentech,
Inc. v. Immunex Rhode Island Corp., No. 19-2155 (Fed. Cir.), held on June 3, 2020; the preparation of a
petition for rehearing in Ericsson Inc. v. TCL Communication Technology Holdings Ltd., No. 18-2003
(Fed. Cir.), filed on June 12, 2020; preparation of a reply brief in Arthrex, Inc. v. Smith & Nephew, Inc., No.

SERVICE LIST
Seth P. Waxman
Wilmer Cutler Pickering Hale & Dorr LLP
1875 Pennsylvania Ave. NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
Stephen S. Korniczky
Sheppard Mullin Richter & Hampton LLP
12275 El Camino Real Suite 200
San Diego, CA 92130
(858) 720-8900
skorniczky@sheppardmullin.com
Karin Dougan Vogel
Sheppard Mullin Richter & Hampton LLP
501 West Broadway 19th Floor
San Diego, CA 92101
(619) 338-6500
kvogel@sheppardmullin.com

